Danielle Spinelli

February 23, 2021

+1 202 663 6901 (t)
+1 202 663 6363 (f)
danielle.spinelli@wilmerhale.com

VIA HAND DELIVERY
& ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

PHI Air Medical, LLC v. Texas Mutual Insurance Company et al., No. 20-748

Dear Mr. Harris:
We represent respondent Texas Mutual Insurance Company (“Texas Mutual”) in the
above matter. Briefs in opposition to the petition for certiorari are currently due March 1, 2021.
Pursuant to Supreme Court Rule 30.4, we respectfully request that the Court extend the
time for respondents to file briefs in opposition for one week, until March 8, 2021. Texas
Mutual and other respondents are located in Texas and have been adversely affected by the
disaster there caused by severe winter weather beginning on February 11, 2021, which led to
prolonged power outages and loss of access to heat and potable water. An additional week will
allow respondents the necessary time to coordinate with one another and to review and finalize
their briefs.
Counsel for petitioner PHI Air Medical, LLC, has consented to the requested extension.
Respectfully submitted,
/s/ Danielle Spinelli
Danielle Spinelli
cc:

Paul D. Clement (via e-mail)
Judd E. Stone II (via e-mail)
Lisa A. Bennett (via e-mail)
James M. Loughlin (via e-mail)

